IN THE SUPREME COURT OF THE UNITED STATES

RPM INTERNATIONAL INC., RUST-OLEUM CORPORATION,
Petitioner,
Vv.

ALAN STUART, TRUSTEE FOR THE CECIL G. STUART AND DONNA M.
STUART REVOCABLE LIVING TRUST AGREEMENT, CDS DEVELOPMENT,
LLC

Respondents,

CERTIFICATE OF WORD LIMIT

I, George Thomas Lyons, III, counsel for the Petitioners RPM International
Inc. and Rust-Oleum Corporation (collectively, “Petitioners”), hereby certify that
pursuant to Rule 33.1(g)-(h) of the Rules of this Court the accompanying Petition for
Writ of Certiorari contains less than the word limit proscribed by the Rules of this
Court, excluding the parts of the document that are exempted by the Rules of this
Court. This certificate was prepared in reliance on the word processing system
(Microsoft Word) used to prepare the document.

I declare under penalty of perjury that the foregoing is true and correct.

September 4, 2020

   

Hulbert & Berghoft LLP
300 South Wacker Drive
Chicago, IL 60606

(312) 913-0001

Counsel for Petitioners
